"Review of the State of New Jerseys Fiscal Year 1994 Pension Fund Withdrawal,"(A-02-01-02005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of New Jerseys Fiscal Year 1994 Pension Fund Withdrawal," (A-02-01-02005)
August 17, 2001
Complete
Text of Report is available in PDF format (563 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In 1994 New Jersey, based on changes to its State law, withdrew $180.2 million from State employees pension programs
and deposited the funds into the States General Fund.  This final report points out that the State did not credit
the Federal Government with its share of the pension expenses originally funded by Federal programs, grants, and contracts.
The amount owed the Federal Government, including interest, totaled about $9.7 million. We recommended the State return
this amount to the Federal Government. The State concurred, and issued a check to the Department of Health and Human Services
for the $9.7 million in July 2001.